APPENDIX B
District Court’s Memorandum Opinion Denying John Christopher
Motion to Suppress (Unpublished)

Case 4:16-cr-00034 Document 57 Filed on 04/13/18 in TXSD Page 1 of 11

UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF TEXAS
HOUSTON DIVISION
UNITED STATES OF AMERICA

v.

JOHN CHRISTOPHER FERGUSON in custody

§
§
§
§
§
§
§

CRIMINAL ACTION H-16-34

MEMORANDUM OPINION AND ORDER
Pending before the court are a motion to suppress (Dkt. 50) and a motion to dismiss (Dkt.
51) filed by defendant John Christopher Ferguson.1 Having considered the motions, responses, and
applicable law, the court is of the opinion that both motions should be DENIED.
I. BACKGROUND
This case arises from Ferguson’s activity on a website known as Playpen. Dkt. 50 at 6.
Playpen was “a global online forum through which registered users . . . advertised, distributed, and/or
accessed illegal child pornography.” Dkt. 55 at 3.
Playpen existed as a hidden website on the Tor Network, also known as the
dark web. Through sophisticated encryption, the Tor Network anonymizes
and actively conceals identifying information about website users, including
a user’s true Internet Protocol (“IP”) address. To access Playpen, it was
necessary for users to know the website’s address on the Tor Network. Users
could not, for example, stumble upon Playpen while browsing the Internet.
Once on the Playpen website, users logged in with dedicated usernames and
passwords. Playpen offered users various forums for different child
pornography topics, including “Incest” and “Toddlers.” Inside each forum
were discussion posts, images, and videos related to the particular topic.

1

Ferguson also requests a hearing “only if the court deems one necessary or the government
contests issue of fact that bear upon the legality of the search.” Dkt. 50 at 1 n.1. Because the
material facts are undisputed, Ferguson’s request for a hearing is DENIED.

19-20639.274

Case 4:16-cr-00034 Document 57 Filed on 04/13/18 in TXSD Page 2 of 11

United States v. Pawlak, 237 F. Supp. 3d 460, 463–64 (N.D. Tex. 2017) (Fitzwater, J.).
In February 2015, the Federal Bureau of Investigation (“FBI”) apprehended the administrator
of Playpen and took control of the website. Dkt. 55 at 5; see also Dkt. 50 at 3. Although the FBI
could view and document the substantial illicit activity occurring on Playpen, investigators could not
identify Playpen users’ IP addresses because of the Tor Network’s anonymity. Dkt. 50 at 4. In order
to determine the IP addresses and other information of Playpen users, the FBI applied for a search
warrant before a magistrate judge in the Eastern District of Virginia. Id. at 5. The warrant, which
was signed on February 20, 2015, allowed the FBI to use a network investigative technique (“NIT”)
to reveal information about Playpen users. See id. at 5–6. The NIT worked by placing “additional
computer instructions” in the content Playpen would normally send to users. Dkt. 50-2 at 29. Then,
[w]hen a user’s computer successfully downloads those instructions from
[Playpen], located in the Eastern District of Virginia, the instructions, which
comprise the NIT, are designed to cause the user’s “activating” computer to
transmit certain information to a computer controlled by or known to the
government.
Id.
Using the NIT, the FBI identified an IP address associated with Playpen user “joedirt.” Dkt.
50 at 6. The government traced the IP address to Ferguson and determined that he accessed Playpen
from his residence in Houston, Texas. Id. Using that information, “law enforcement obtained a
search warrant in the Southern District of Texas for [Ferguson’s] home.” Id. at 7. The FBI
conducted a forensic review of his computers and hard drives after he provided the password and
“found approximately 1,061 videos and 13,157 images of young children engaged in ‘sexually
explicit conduct.’” Id.; Dkt. 55 at 7. Further, Ferguson was identified as the adult male engaging
in the “sexually explicit conduct” with a prepubescent female in three of the videos. Id.
2

19-20639.275

Case 4:16-cr-00034 Document 57 Filed on 04/13/18 in TXSD Page 3 of 11

Ferguson moves to suppress “all fruits of the poisonous tree resulting from the illegal search
of his home.” Dkt. 50 at 1. Ferguson also moves to dismiss the indictment based on outrageous
government conduct. Dkt. 51 at 1. The government opposes both motions. Dkts. 55, 56.
II. LAW AND ANALYSIS
A.

Motion to Suppress
Ferguson moves to suppress the evidence resulting from the search of his home because the

NIT warrant signed by the Eastern District of Virginia magistrate judge was not valid. Dkt. 50 at
1.

In particular, Ferguson argues that the NIT warrant was invalid because: (1) it lacked

particularity; (2) it violated the Federal Magistrates Act by violating Federal Rule of Criminal
Procedure 41(b); and (3) the Leon good-faith exception does not apply. Id. at 2.
1.

Particularity

Ferguson argues that the NIT warrant lacked particularity because that single warrant allowed
the search of 150,000 electronic devices, without specifying the location of a single one of them.
Dkt. 50 at 12. According to Ferguson, “neither the [m]agistrate [j]udge nor the affiant could know
what computers might be searched until after the search ha[d] already occurred.” Id. at 14. Thus,
the NIT warrant failed “to adequately describe the specific place to be searched.” Id. The
government responds that the warrant particularly described the computers that were searched as
those whose users logged into Playpen by entering a username and password. Dkt. 55 at 7.
The Fourth Amendment “specifies only two matters that the warrant must particularly
describe: the place to be searched and the persons or things to be seized.” United States v. Grubbs,
547 U.S. 90, 97, 126 S. Ct. 1494 (2006) (internal quotations omitted). “The test for determining the
adequacy of the description of the location to be searched is whether the description is sufficient ‘to
3

19-20639.276

Case 4:16-cr-00034 Document 57 Filed on 04/13/18 in TXSD Page 4 of 11

enable the executing officer to locate and identify the premises with reasonable effort, and whether
there is any reasonable probability that another premise might be mistakenly searched.’” United
States v. Smith, No. 4:15-CR-00467, 2016 U.S. Dist. LEXIS 182365, at *10 (S.D. Tex. Sept. 28,
2016) (quoting United States v. Bonner, 808 F.2d 864, 866 (1st Cir. 1986)).
The NIT warrant’s “Place to be Searched” section provides the following:
This warrant authorizes the use of a [NIT] to be deployed on the
computer server described below, obtaining information described in
Attachment B from the activating computers described below.
The computer server is the server operating the Tor [N]etwork child
pornography website referred to herein as [Playpen], as identified by its URL
-upf45jv3bziuctml.onion- which will be located at a government facility in
the Eastern District of Virginia.
The activating computers are those of any user or administrator who
logs into [Playpen] by entering a username or password. The government
will not employ this [NIT] after 30 days after this warrant is authorized,
without further authorization.
Dkt. 50-2 at 4. Attachment B, titled “Information to be Seized,” authorized the seizure of seven
specific categories of information, including “the ‘activating’ computer’s actual IP address, and the
date and time that the NIT determines what that IP address is.” Id. at 5.
The court agrees with the government that the NIT warrant sufficiently described the place
to be searched. The only computers that could be searched were those whose users logged into
Playpen. Dkt. 50-2 at 4. Ferguson argues that the magistrate judge could not know what computers
would be searched until after the search was completed. The court disagrees. The magistrate judge
knew that only those computers whose users logged into Playpen would be searched—the computers
that would contain evidence of violations of federal child pornography laws. See Pawlak, 237 F.
Supp. 3d at 466–67. The warrant was not so expansive in its language to “constitute a virtual, allencompassing dragnet” as Ferguson suggests. Dkt. 50 at 13 (quoting United States v. Bridges, 344
4

19-20639.277

Case 4:16-cr-00034 Document 57 Filed on 04/13/18 in TXSD Page 5 of 11

F.3d 1010, 1016 (9th Cir. 2003)). The warrant did not allow information to be seized from any
computer anywhere in the world as Ferguson seems to argue. A computer could only be searched
if it was used to access Playpen, giving the court probable cause that child pornography laws were
violated. See, e.g., United States v. Matish, 193 F. Supp. 3d 585, 609 (E.D. Va. 2016) (“[T]here
existed a fair probability that anyone accessing Playpen possessed the intent to view and trade child
pornography.”). Further, that the warrant allowed for the search of 150,000 computers does not
mean the warrant lacked particularity. When a warrant’s scope encompasses “‘any and all vehicles’
at a scene, without naming any vehicle in particular, the probable cause on which it stands must be
equally broad.” Id. at 607 (quoting United States v. Swift, 720 F. Supp. 2d 1048, 1055 (E.D. Ark.
2010)). The sheer number of computers searched does not equate to a lack of particularity because
each search was based on probable cause. Thus, the warrant satisfied the particularity requirement.
2.

Federal Magistrates Act2 and Rule 41(b)

District courts all over the country have been tasked with deciding similar issues as those
before the court. Dkt. 55 at 18–22 (collecting cases). Almost always, the courts have declined to
suppress evidence based on the NIT warrant. See Pawlak, 237 F. Supp. 3d at 470. Some courts have
determined that the warrant complied with Rule 41(b). See United States v. Anzalone, 208 F. Supp.
3d 358, 370 (D. Mass. 2016) (collecting cases). The majority of courts have determined that even
though the NIT warrant violated Rule 41(b), suppression of the evidence was not warranted.
Pawlak, 237 F. Supp. 3d at 470. Finally, a very small minority of courts have suppressed the

2

The Federal Magistrates Act provides, in relevant part, that magistrate judges shall have
“within the district . . . all powers and duties conferred or imposed upon United States
commissioners by law or by the Rules of Criminal Procedure for the United States District Courts.”
28 U.S.C. § 636(a). Thus, violating Rule 41(b) also violates the Act.
5

19-20639.278

Case 4:16-cr-00034 Document 57 Filed on 04/13/18 in TXSD Page 6 of 11

evidence. United States v. Croghan, 209 F. Supp. 3d 1080 (S.D. Iowa 2016), rev’d sub nom. United
States v. Horton, 863 F.3d 1041 (8th Cir. 2017); United States v. Workman, 205 F. Supp. 3d 1256
(D. Colo. 2016), rev’d, 863 F.3d 1313 (10th 2017); United States v. Arterbury, No. 15-cr-182, slip.
op. (N.D. Okla. Apr. 25, 2016), overruled by Workman, 863 F.3d 1313; United States v. Levin, 186
F. Supp. 3d 26 (D. Mass), vacated, 847 F.3d 316 (1st Cir. 2017). Ferguson fails to cite a single one
of these cases, and the court is unaware of any, that was not subsequently reversed, overruled, or
vacated. Based on this precedent, the court will assume, without deciding, that the NIT warrant
violated Rule 41(b). Even so, the court agrees with the majority of courts that the good-faith
exception applies.
3.

Good-faith exception

Even if the NIT warrant violated Rule 41(b), “it does not follow automatically that the search
and seizure in this case should be suppressed. Pawlak, 237 F. Supp. 3d at 468. “The purpose of the
exclusionary rule is to deter unlawful police conduct.” United States v. Pope, 467 F.3d 912, 916 (5th
Cir. 2006). But when evidence is obtained in “objectively reasonable good-faith reliance upon a
search warrant,” the rationale for the rule loses its force, and thus the rule is inapplicable. See id.
(citations omitted). “Under the good-faith exception, evidence obtained during the execution of a
warrant later determined to be deficient is admissible nonetheless, so long as the executing officers’
reliance on the warrant was objectively reasonable and in good faith.” United States v. Payne, 341
F.3d 393, 399 (5th Cir. 2003) (citing United States v. Leon, 468 U.S. 897, 921–25, 104 S. Ct. 3405
(1984)). “The ‘good faith inquiry is confined to the objectively ascertainable question whether a
reasonably well-trained officer would have known that the search was illegal despite the magistrate’s
authorization.’” Pope, 467 F.3d at 917 (quoting Leon, 468 U.S. at 922 n.23)).
6

19-20639.279

Case 4:16-cr-00034 Document 57 Filed on 04/13/18 in TXSD Page 7 of 11

In the context of a Rule 41 violation, “where there is no constitutional violation nor prejudice
in the sense that the search would likely not have occurred or been as abrasive or intrusive had Rule
41 been followed, suppression . . . is not appropriate if the officers concerned acted in the affirmative
good faith belief that the warrant was valid and authorized their conduct.” United States v.
Comstock, 805 F.2d 1194, 1207 (5th Cir. 1986). “This is because the balance of interests inherent
in an exclusionary rule analysis ‘weighs much less heavily [when] the [Rule 41] violation is neither
of constitutional dimensions nor intentional.’” Pawlak, 237 F. Supp. 3d at 469 (quoting id. at 1210).
Ferguson argues that the good-faith exception should not apply because: (1) the NIT warrant
was unconstitutional; and (2) the government acted with reckless disregard of Rule 41. Dkt. 50 at
25–27.

Regarding the constitutional question, Ferguson first argues that the warrant was

unconstitutional because it lacked particularity. Dkt. 50 at 25. The court has already determined that
the warrant was sufficiently particularized. See supra Section II.A.1. Second, he argues that the
warrant was void ab initio, and all searches enacted upon it were thus unconstitutional warrantless
searches. Dkt. 50 at 25 (citing Croghan, 209 F. Supp. 3d at 1090)). Similar to Pawlak, “[t]he court
is unaware of any binding precedent in this circuit that restricts the [good-faith] exception in this
manner, and it therefore declines to adopt this rule.” 237 F. Supp. 3d at 469. Further,
[t]he Fourth Amendment does not address the powers of magistrate judges
or district judges, nor does it address whether judges’ power extends beyond
district boundaries. The Fourth Amendment simply requires, in pertinent
part, that a warrant be issued by a “neutral magistrate.” Thus[,] any more
specific restrictions regarding who can issue a particular type of warrant are
statutory or rule creations that do not implicate the Fourth Amendment.

7

19-20639.280

Case 4:16-cr-00034 Document 57 Filed on 04/13/18 in TXSD Page 8 of 11

United States v. Perdue, 237 F. Supp. 3d 471, 478 (N.D. Tex. 2017) (citing U.S. Const. amend. IV;
United States v. Deichert, 232 F. Supp. 3d 772, 783 (E.D.N.C. 2017)). Accordingly, even if the NIT
warrant violated Rule 41, it did not violate the Constitution.
Next, the court must consider whether the potential Rule 41(b) violation prejudiced Ferguson
“in the sense that the search would likely not have occurred or been as abrasive or intrusive had Rule
41 been followed.” Comstock, 805 F.2d at 1207. According to Ferguson, “[w]ithout the information
obtained by the NIT, the FBI would not have known of [his] existence, much less have obtained
probable cause to search his home in Texas.” Dkt. 50 at 27. The court disagrees. Ferguson does
not and cannot argue that the NIT warrant was not supported by probable cause. And because
district judges are not limited by Rule 41(b) as magistrates are, a district judge in the Eastern District
of Virginia would have been able to issue a warrant for the search of Ferguson’s computer in Texas.
Pawlak, 237 F. Supp. 3d at 469. Thus, the court “concludes that the Rule 41(b) violation was
technical” and did not prejudice Ferguson in the manner contemplated by Comstock. Id.
Lastly, the court must determine “if the officers concerned acted in the affirmative good faith
belief that the warrant was valid and authorized their conduct.” Comstock, 805 F.2d at 1207. “Good
faith in this context implies not only that Rule 41 was not knowingly and intentionally violated, but
also that the officers did not act in reckless disregard or conscious indifference to whether it applied
and was complied with.” Id. Ferguson asserts that “[t]he [g]overnment knew that the plain language
of Rule 41(b) limited the use of the NIT [w]arrant to computers located in the Eastern District of
Virginia.” Dkt. 50 at 27. However, “many [courts have held] that the magistrate judge had authority
to issue the NIT warrant under the tracking device exception [to Rule 41(b)].” United States v. Leal,
No. 1:17-cr-00046, slip op. at 11 (S.D. Tex. May 26, 2017) (Hanen, J.) When so many federal
8

19-20639.281

Case 4:16-cr-00034 Document 57 Filed on 04/13/18 in TXSD Page 9 of 11

judges have reached conflicting opinions as to the validity of the warrant, it cannot be said that the
agents in question knew or should have known that the magistrate judge lacked authority. See id.
at 12. Thus, the motion to suppress is DENIED because the good-faith exception applies.3
B.

Motion to Dismiss
Ferguson moves to dismiss the case because the FBI’s decision to continue operating the

Playpen site for two weeks constituted outrageous conduct. Dkt. 51. Despite that numerous
defendants have made this same or similar argument, Ferguson points to no district court that has
found the argument meritorious. Id.; see also United States v. Tran, 226 F. Supp. 3d 58, 63 (D.
Mass. 2016) (“Every district court to consider this same argument has found it wanting.”).
The Fifth Circuit has held that “[g]overnment misconduct does not mandate dismissal of an
indictment unless it is ‘so outrageous’ that it violates the principle of ‘fundamental fairness’ under
the due process clause of the Fifth Amendment. United States v. Asibor, 109 F.3d 1023, 1039 (5th
Cir. 1997) (quoting United States v. Johnson, 68 F.3d 899, 902 (5th Cir. 1995)). “Such a violation
will only be found in the rarest of circumstances.” Johnson, 68 F.3d at 902. “Thus, a defendant who
asserts the defense of outrageous government conduct has an extremely high burden of proof.”
Asibor, 109 F.3d at 1039. “Furthermore, in order to avail himself of the outrageous conduct defense,
the defendant must show government overinvolvement combined with a passive role by the

3

Because the court finds that the Rule 41 violation did not amount to a constitutional
violation, the court need not consider whether the agents’ good faith was objectively reasonable as
required by Leon. Comstock, 805 F.2d at 1207. However, even applying the Leon good-faith
analysis, the court still finds that the exception applies. The court agrees with Judge Hanen’s
analysis in Leal. Slip op. at 9–15. The agents’ conduct was objectively reasonable, none of the
circumstances requiring exclusion apply, and excluding the evidence has no deterrent value since
Rule 41 has since been amended to undisputably give magistrate judges the precise authority at issue
in this case. Id.
9

19-20639.282

Case 4:16-cr-00034 Document 57 Filed on 04/13/18 in TXSD Page 10 of 11

defendant. Where the court finds that the defendant is an active, willing participant in the criminal
conduct that leads to his arrest, we will not find outrageous government conduct.” Id.
Ferguson argues extensively that the government’s conduct was outrageous, but does not
address whether he was a passive or active participant. Dkt. 51. That, alone, justifies denial of his
motion. See Asibor, 109 F.3d at 1039. Even if Ferguson did argue that he merely played a passive
role, dismissal of the indictment would still not be appropriate. Ferguson accessed Playpen before
the government took over the site. Dkt. 50-1 at 21. Thus, Ferguson cannot argue that he played a
mere passive role while the government was overinvolved if he used the site before the government
ever operated the site. As the Fifth Circuit has noted, the government cannot “instigate the criminal
activity, provide the place, equipment, supplies and know-how, and run the entire operation with
only meager assistance from the defendants without violating fundamental fairness.” United States
v. Tobias, 662 F.2d 381, 386 (5th Cir. Unit B 1981). Ferguson accessed the site with or without the
government’s involvement. Thus, he cannot logically maintain that he provided “meager assistance”
or that the government’s involvement was so outrageous that it was fundamentally unfair to him.
Accordingly, Ferguson’s motion to dismiss is DENIED.

10

19-20639.283

Case 4:16-cr-00034 Document 57 Filed on 04/13/18 in TXSD Page 11 of 11

III. CONCLUSION
Because the court agrees with the majority of courts that the good-faith exception precludes
the exclusion of the evidence, Ferguson’s motion to suppress (Dkt. 50) is DENIED regardless of
whether the NIT warrant violated Rule 41. Ferguson’s motion to dismiss (Dkt. 51) is DENIED
because he failed to meet his “extremely high burden of proof” to show outrageous government
conduct. Asibor, 109 F.3d at 1039. Because this order precludes the need for a hearing, Ferguson’s
request for a hearing is DENIED as moot.
Signed at Houston, Texas on April 13, 2018.

Gray H. Miller
United States District Judge

11

19-20639.284

